October 1999 Testimony	                                                     CL-TR-00-001(R)



Introduction 	            Chairman McHugh, Congressman Fattah, and Members of
                          the Subcommittee, I am pleased to appear before you today
                          to provide the Subcommittee with my perspective on current
                          operations within the US Postal Service. Much of this
                          perspective was gained during the audits, investigations,
                          and other work performed by the Office of Inspector General
                          since I testified before you in June 1998. In addition, I will
                          provide a synopsis of the progress we have made in
                          establishing our office, and some of the challenges that we
                          face.

                          Joining me today are: Thomas Coogan, Legal Counsel, and
                          Richard Chambers, Assistant Inspector General for Audit.
                          With your permission, I would like to submit my full
                          statement for the record.

Background 	              Mr. Chairman, as you are aware, this is our third year as an
                          independent Office of Inspector General within the Postal
                          Service. In our first year, we established a separate mission
                          from the Inspection Service, crafted a budget, developed a
                          strategic plan, and drew up our initial organization plans. In
                          our second year, we focused our efforts on hiring,
                          identifying the universe of Postal operations and activities,
                          and initiating audits and investigations. In this our third
                          year, we have concentrated our efforts on reviews of key
                          Postal Service programs, initiatives, and activities.

                          Our progress in hiring employees and accomplishing
                          projects is illustrated in the following chart.




                                              1
                                   Restricted Information
October 1999 Testimony                                                                                                            CL-TR-00-001(R)




                                                     Staffing and Reporting Trends

                                100                                                                                                   500


                                 90                                                                                                   450


                                 80                                                                                                   400
    Number of Products Issued




                                                                                                                                            Number of Paid Employees
                                 70                                                                                                   350


                                 60                                                                                                   300


                                 50                                                                                                   250


                                 40                                                                                                   200


                                 30                                                                                                   150


                                 20                                                                                                   100


                                 10                                                                                                   50


                                  0                                                                                                   0
                                      10/96 - 3/97   4/97 - 9/97       10/97 - 3/98   4/98 - 9/98      10/98 - 3/99   4/99 - 9/99 *

                                                                   Semi-annual Reporting Period

                                                                    Total Products              Employees




                                                         Even though we still might be considered a fledgling
                                                         organization by many standards, I am proud to report to you
                                                         that we have achieved numerous accomplishments and
                                                         made remarkable progress since my June 1998 testimony.
                                                         In the last six months alone, with the support of the Postal
                                                         Service Governors and the assistance of Postal Service
                                                         management and employees, we issued over 100 reports,
                                                         including audits, investigations, management advisories,
                                                         and Congressionals. These reports represented over
                                                         $1.1 billion in savings and potential cost avoidance during
                                                         the current and future years. In addition, we currently have
                                                         over 190 ongoing investigations. Our investigations have
                                                         yielded five arrests, seven indictments, five convictions, and
                                                         $2 million in civil case recoveries, as well as over $100,000
                                                         in fines and restitution. In addition, we initiated proactive
                                                         investigative projects targeting fraud and corruption in
                                                         various areas.




                                                                                  2
                                                                       Restricted Information
October 1999 Testimony	                                                                             CL-TR-00-001(R)




Impact of Office of                 One of the principal missions of this OIG is to improve the
Inspector General On                Postal Service’s operations by providing timely and reliable
Postal Service                      information to its management. We have provided Postal
Operations                          management with recommendations to improve Postal

                                    Service operations in five critical areas: performance,
                                    technology, financial management, labor relations, and
                                    Inspection Service oversight and other significant issues.

Performance                         Ultimately, no business or government agency can be truly
                                    successful unless it excels in all of its core business
                                    processes. For the Postal Service, these core business
                                    processes involve accepting, processing, transporting, and
                                    delivering the mail, and marketing Postal products. During
                                    the past 18 months, we have completed 49 reviews in these
                                    critical core business areas. These reviews:

                                    •	 Identified potential cost avoidance of nearly $1 billion
                                       through fiscal year (FY) 2007 in the Corporate Call
                                       Management program as a result of improvements in
                                       technology and changes in call mix.

                                    •	 Determined that Postal Service could save over
                                       $100 million1 through better contract administration and
                                       oversight of highway transportation emergency and extra
                                       trip expenditures.

                                    •	 Identified savings of nearly $50 million2 in rail detention
                                       costs by ensuring that facilities management does not
                                       use trailers to augment highway trailer fleets and store
                                       equipment, by considering the detention status of trailers
                                       before making dispatch decisions, and by seeking
                                       reimbursement for detention caused by mailers.

                                    •	 Determined that a telecommunications contractor had
                                       subcontractors who billed for services not rendered, and
                                       provided incomplete and defective work. Through our
                                       efforts, the Postal Service has recovered $2 million from
                                       the subcontractors thus far.



1
    Projected monetary benefits include $24.7 million in FY 2000 and $21.2 million annually through FY 2004.
2
    Projected monetary benefits through FY 2004 based on the FY 1999 funding level of $11 million.



                                                           3
                                                Restricted Information
October 1999 Testimony	                                                      CL-TR-00-001(R)




                          •	 Established that processing mail through the contractor­
                             operated Priority Mail Processing Center Network did not
                             significantly improve on-time delivery performance but
                             did cost the Postal Service more than to process it in­
                             house.

                          •	 Concluded that volume data for bulk mail centers was
                             not accurate.

                          •	 Found that the International Business Unit did not have
                             key processes in place to achieve projected revenue
                             goals and that some initiatives fell short of revenue
                             projections.

                          •	 In one international mail case, as much as $20 million in
                             revenue could have been collected had the Postal
                             Service not charged a lower negotiated international rate
                             for mail actually processed completely as domestic mail.

                          These reviews highlight but a few of the issues facing the
                          Postal Service. They raise questions about process
                          integrity, data reliability, the accuracy of revenue
                          projections, and achievement of service delivery and
                          performance goals. We will continue to address these and
                          other similar issues in reviews planned for this fiscal year
                          and beyond.

Technology	               The Postal Service depends on technology to deliver more
                          than 650 million pieces of mail every day, maintain its
                          network of over 38,000 post offices and facilities, and pay its
                          more than 800,000 career employees. For just the
                          Information Systems portion of the technology area alone,
                          the Postal Service budgeted almost $1 billion in Fiscal Year
                          1999, not including budgets for all technology-dependent
                          equipment, systems, and initiatives. The Postal Service
                          recognizes that technology is critical to its future and,
                          therefore, its technology strategy is to provide convenient
                          access to every customer, everywhere, every day, by
                          fielding smarter retail systems, expanding into new
                          electronic access channels, and providing electronic
                          linkages that integrate customer and postal processes.




                                              4
                                   Restricted Information
October 1999 Testimony	                                                      CL-TR-00-001(R)




Year 2000 Effort	         Mr. Chairman, because of this dependency on technology
                          we have devoted considerable Office of Inspector General
                          resources and energy on programs and systems that utilize
                          technology to move the mail. We have dedicated extensive
                          resources to oversee and contribute to the Postal Service’s
                          Year 2000 (Y2K) effort, issuing nine reports in the past 18
                          months that address such issues as remediation, validation,
                          reporting quality, budgeting, contracting, and the adequacy
                          of continuity planning. Our Y2K team was awarded the
                          Executive Council on Integrity and Efficiency Award of
                          Excellence for this work in September 1999.

                          These audits resulted in improvements in various aspects of
                          the Y2K process, such as the independent verification
                          process. Our recommendations helped improve the quality
                          of systems sent into verification and helped reduce the
                          workload by introducing system sampling to replace 100
                          percent re-certification. Likewise, our audit on Y2K
                          reporting quality pointed out inconsistencies in information
                          presented to senior management and presented an
                          independent perspective on the progress of the Postal
                          Service’s Y2K readiness. I also testified before you in a
                          joint House Subcommittee hearing on the Postal Service’s
                          Y2K readiness in February of this year.

                          In addition, we have four more Y2K projects ongoing. And
                          to demonstrate that we practice what we preach, we have
                          aggressively pursued Y2K readiness by obtaining vendor
                          certifications for all Office of Inspector General office
                          software and network-related hardware and peripherals. All
                          of our personal computers will be compliant by the end of
                          November.

Point of Service ONE 	    We also looked at systems under development, such as the
                          Postal Service’s Point of Service (POS) ONE system, which
                          replaces all outdated, integrated retail terminals at post
                          offices nationwide, and its Tray Management System, which
                          automates the movement and staging of mail between
                          sorting operations. Both systems had faulty system
                          development practices and premature deployment. We
                          believe the POS ONE system resulted in additional costs to
                          the Postal Service and did not fully meet desired results and
                          benefits. The review of the Tray Management System is
                          yielding similar results. Both technologies are critical to the



                                              5
                                   Restricted Information
October 1999 Testimony	                                                       CL-TR-00-001(R)




                          movement of the mail and revenue collection and represent
                          a projected Postal Service investment of more than $1
                          billion combined.

Computer Security	        Not to leave any stone unturned, we are also looking at the
                          Postal Service’s efforts to protect its investment in
                          technology. We are examining several questions. First,
                          what is the Postal Service’s computer security vulnerability
                          posture? Second, does it have proper controls in place to
                          ensure data integrity? Third, are its systems vulnerable to
                          hackers and can they be penetrated?

                          From the computer security controls perspective, we want to
                          determine whether the Postal Service has established a
                          comprehensive, Postal-wide computer security program.
                          Sensitive, critical systems are vulnerable to penetration.
                          We need to determine if procedures exist to identify and
                          deter cyber attacks. We currently have two teams
                          assessing these security areas and plan to brief
                          management before the year-end.

                          We are proud that we developed one of the few computer
                          intrusion units within the federal government. This group,
                          along with individuals from the National Aeronautics and
                          Space Administration, received a joint Award of Excellence
                          from both the Executive and President’s Councils on
                          Integrity and Efficiency for providing intrusion training to 26
                          law enforcement agencies, including Office of Inspectors
                          General and the Department of Justice.

Electronic Commerce 	     Last, but certainly not least, is the area of electronic
                          commerce. During this year, the Postal Service announced
                          its high-level internet strategy, appointed a Vice President
                          for Electronic Commerce, established a senior management
                          Electronic Commerce Steering Committee, established the
                          Internet Business Group, implemented electronic commerce
                          systems, and developed critical electronic commerce
                          partnerships. We are aggressively addressing this issue
                          and have several initiatives planned for Fiscal Year 2000. I
                          am very excited about being part of the electronic
                          commerce initiative and we are keeping pace with Postal
                          Service developments in this most challenging area.




                                              6
                                   Restricted Information
October 1999 Testimony	                                                       CL-TR-00-001(R)




Financial 	               The Postal Service is a $60 billion business that relies on
Management 	              strong financial management to control costs and maximize
                          revenues. The Postal Service purchased $8 billion in goods
                          and services in Fiscal Year 1998 through contracts. In
                          addition, the Postal Service is one of America's largest
                          owners, developers and managers of real estate. In Fiscal
                          Year 1998, the Postal Service spent close to $1.2 billion for
                          contracts to repair, renovate, and construct facilities.

                          Since our June 1998 testimony, we have issued a total of 31
                          reports covering financial operations, including contracting
                          and facilities. These reviews:

                          •	 Identified ways to reduce the risk of money laundering in
                             the Dinero Seguro wire transfer program. Mr. Chairman,
                             as you know, we previously informed you that the
                             indictment of Bancomer did not jeopardize the integrity
                             of the Dinero Seguro Program. Although it did not effect
                             the integrity of the program, our review did uncover a
                             previously unknown scheme whereby drug traffickers
                             used the program to wire drug proceeds to Mexico. In
                             subsequent partnering with another federal law
                             enforcement agency, this investigation has yielded five
                             arrests for violation of the Money Laundering Control
                             Act, along with the seizure of 25 kilograms of marijuana
                             and three kilograms of cocaine.

                          •	 Evaluated the Postal Service’s compliance with the Bank
                             Secrecy Act and discovered numerous areas where the
                             Postal Service was noncompliant.

                          •	 Examined the financial profitability of international mail
                             and determined that international mail services
                             contribute positively to the financial position of the Postal
                             Service and are not subsidized by domestic mail service.

                          •	 Aided the external auditor in independently verifying the
                             reliability and accuracy of the financial data for each of
                             the past two years, including electronic data processing
                             systems.




                                              7
                                   Restricted Information
October 1999 Testimony	                                                       CL-TR-00-001(R)




Contracting and           In addition, we issued contracting and facilities reports
Facilities                which:

                          •	 Disclosed that the Postal Service, as compared to other
                             Federal agencies, rarely suspends or debars
                             contractors. The Postal Service agreed with our report
                             and is establishing a task force to review and improve its
                             suspension and debarment policies and procedures.

                          •	 Recommended suspension and/or debarment of three
                             postal contractors, in unrelated cases, who engaged in
                             illegal acts such as bribery and falsifying documents,
                             and failing to adhere to generally accepted construction
                             and quality control practices.

                          •	 Reviewed the Atlanta Olympic Facility Improvement
                             Plan, at your request, Mr. Chairman, and found the plan
                             did not receive approval and oversight at an appropriate
                             level -- contributing to an increased cost of at least $9
                             million over original projections.

                          •	 Identified missed opportunities and questioned up to $72
                             million in costs because the Postal Service did not
                             request sufficient pre- and post-award contract audits.

                          •	 Suggested ways to help reverse the Postal Service’s
                             recent decline in minority contracting by strengthening
                             contracting officer accountability, directing that
                             subcontractors specifically include minority businesses
                             in their hiring plans, and clarifying qualifying regulations.
                             This review was done at Congressman Fattah’s
                             suggestion.

                          Based on the results of these initial reviews, we will expand
                          our coverage of these areas to add value, identify
                          opportunities for cost savings, and promote improved
                          financial management practices.

Labor Management          The Postal Service has characterized labor management as
                          one of its most important challenges in achieving its goals in
                          the 21st century. With approximately 800,000 career and
                          100,000 part-time employees, improving workplace relations
                          among labor, management, and the unions and
                          associations that represent them, is a key objective within


                                              8
                                   Restricted Information
October 1999 Testimony                                                     CL-TR-00-001(R)




                         the Postal Service. Because of the importance of labor
                         management on Postal operations, the Postal Service has
                         developed numerous initiatives and programs focused on
                         reducing conflict in the workplace and improving the
                         effectiveness of procedures to resolve disputes. In addition,
                         established channels are available to help resolve Postal
                         employees’ complaints. These channels include contractual
                         grievance arbitration procedures and the Equal Employment
                         Opportunity process.

                         However, labor management is one of the toughest areas
                         for us to adequately address. Since our inception, we have
                         received over 2,500 individual labor management
                         complaints. Because of the emotional involvement,
                         potential financial impact, and the length of time to resolve
                         these issues for the employee, management, and Postal
                         Service, it is important that our involvement in this area be
                         meaningful and positive. Therefore, the approach we have
                         developed to deal with the sheer magnitude of complaints is
                         to step back and focus primarily on systemic issues and
                         conduct Postal-wide reviews. These reviews are designed
                         to identify and short circuit potential problems that can
                         detract from a healthy and productive work environment.

                         Federal Inspectors General typically perform programmatic
                         and operational audits. Most individual labor management
                         complaints do not focus on programs and operations but on
                         personal concerns. Therefore, we usually do not review
                         individual complaints unless they involve potentially violent
                         or other egregious situations. However, individual
                         complaints provide us with extremely valuable information
                         that we can use to identify Postal-wide issues and plan
                         reviews that address these issues on a systemic basis.
                         Members of Congress often ask us to address individual
                         complaints, but to do this would require a substantial
                         increase in our labor management staff and expanding our
                         mission into individual reviews.

                         Since June 1998, the Office of Inspector General has
                         completed 30 reports and approximately 60 congressional
                         responses concerning labor management. Our Labor-
                         Management team was recognized with an Executive
                         Council on Integrity and Efficiency Award of Excellence this
                         year for work in this area.



                                             9
                                  Restricted Information
October 1999 Testimony                                                     CL-TR-00-001(R)




                         As a result of a request from Congressman Fattah, we have
                         issued four reports that focused on the Postal Service
                         grievance arbitration process. In Fiscal Year 1997, the
                         Postal Service estimated that it spent at least $216 million
                         on grievances. These grievance arbitration reviews
                         provided suggestions on how to improve the process,
                         reduce the backlog of grievances, and improve the labor
                         climate.

                         In July 1998, Congressman Fattah sent us over 500
                         complaints, which he had received from a Postal union,
                         representing the concerns of more than 1,200 individuals.

                         We designed a series of reviews to address the systemic
                         issues underlying these complaints.

                         The first report in this series addressed the consistency with
                         which Postal management within one district communicated
                         and enforced Postal Service policies regarding violent and
                         inappropriate behavior in the workplace. We found that
                         management had not effectively implemented many of the
                         Postal Service’s violence prevention policies and
                         procedures. This is similar to the result we found when we
                         looked at the December 1997 Milwaukee incident, at your
                         request, Mr. Chairman. Based on the work at Milwaukee
                         and the other district, we are reviewing the violence
                         prevention and response programs at 26 additional Postal
                         Service district offices and will issue reports upon
                         completion.

                         Another area that has piqued our professional interest
                         involves the implementation of the Postal Employees Safety
                         Enhancement Act requirements and its effect on the
                         organizational climate and Postal Service operations in
                         general. A review of these issues will provide Postal
                         Service employees with an independent evaluation of
                         working conditions and provide information that may reduce
                         the Postal Service’s liability for penalties and third party
                         litigation.

                         To address Postal Service challenges, the Postal Service
                         must give labor management issues more visibility. We will
                         continue to work with management and to consult with labor




                                            10
                                  Restricted Information
October 1999 Testimony	                                                     CL-TR-00-001(R)



                          officials to ensure our reviews are pertinent and that our
                          recommendations are appropriately addressed.

Inspection Service        Mr. Chairman, the final Postal Service areas I would like to
Oversight and Other       discuss include Inspection Service oversight and other
Significant Issues        significant issues. As you well know, one of the primary
                          reasons an independent Office of Inspector General was
                          established in the Postal Service was to provide oversight of
                          Postal Inspection Service activities. Because this is one of
                          our specific statutory responsibilities, we seek to review and
                          resolve all individual complaints that we receive against the
                          Inspection Service. We also perform systemic reviews of
                          Inspection Service operations and activities, and investigate
                          complaints against Postal Inspection Service executives.

                          The Inspection Service has approximately 4,500
                          employees, including 2,100 Postal Inspectors located in 185
                          offices who enforce over 200 statutes relating to crime
                          against the U.S. mail and Postal Service employees and
                          customers. In the past 18 months, we have conducted 18
                          reviews and investigations involving Inspection Service
                          personnel and operations. During these reviews, we:

                          •	 Determined that approximately 250 Postal Inspectors
                             performing audits did not spend at least 50 percent of
                             their time performing the duties of a law enforcement
                             officer. This review was done at your request, Mr.
                             Chairman. As a result of this review, the Inspection
                             Service decided that they would no longer perform
                             “Yellow Book” audits. This decision will have a major
                             impact on the Office of Inspector General. We have
                             created a task force to evaluate the effect of this
                             decision on our staffing needs, field structure, and the
                             agreed upon designation of functions with the Inspection
                             Service. We plan to discuss the results of the task force
                             with the Governors as soon as the task force completes
                             its evaluation.

                          •	 Evaluated the Fiscal Year 1998 Postal Inspection
                             Service Leadership Conference as a result of a hotline
                             allegation. We found that certain conference
                             expenditures and agenda items appeared unnecessary
                             or extravagant, including non-work related workshops,
                             publications, and $82,000 in mementos.




                                             11
                                   Restricted Information
October 1999 Testimony	                                                      CL-TR-00-001(R)



                          •	 Established that a greater level of investigative effort by
                             the Inspection Service was required to deter the use and
                             sale of drugs on Postal premises.

                          As a result of our Postal Inspection Service oversight
                          reviews, Congress, Postal management, and employees,
                          including all levels of Inspection Service employees, have
                          an independent, unbiased, and credible view of Inspection
                          Service activities and operations.

                          Turning from the Inspection Service to other significant work
                          within the Postal Service, we:

                          •	 Provided a statement for the record on proposed
                             sweepstakes fraud legislation in response to an
                             invitation by this Subcommittee. We strongly supported
                             this consumer protection legislation, and suggested that
                             the Postal Service subpoena authority focus on
                             sweepstakes mailings and include due process
                             safeguards.

                          •	 Continued to monitor the Postal Service compliance
                             efforts with the Government Performance and Results
                             Act, and assessed the Postal Service’s implementation
                             of the General Accounting Office's observations on the
                             Postal Service’s draft strategic plan and preliminary
                             annual performance plan.

                          •	 Noted opportunities to enhance the administration of the
                             Postal Service Ethics Program.

                          •	 Questioned the appropriateness of a recent
                             management decision to purchase insurance that
                             included provisions to cover legal expenses of Postal
                             Service officials in the event they are indicted on federal
                             criminal charges.

                          Our work in these other significant areas provides an
                          independent voice, not subject to Postal Service
                          management, which renders objective information and
                          analysis of Postal Service operations.




                                             12
                                   Restricted Information
October 1999 Testimony                                                      CL-TR-00-001(R)




Office of Inspector      I would now like to discuss our internal progress. As
General’s Progress       mentioned earlier in my testimony, in June 1998 we were in
                         the midst of establishing office space and hiring employees.
                         The Inspector General community recognized our enormous
                         accomplishment of establishing a new Office of Inspector
                         General through its Award of Excellence. Since then we
                         have grown from 178 to over 400 employees and from four
                         to six offices in Arlington, VA; Dallas, TX; Minneapolis, MN;
                         St. Louis, MO; San Mateo, CA; and Atlanta, GA. In August
                         1999, the Governors approved a budget for the Office of
                         Inspector General that would support a total of 648 staff and
                         allow us to establish additional offices in Chicago, IL; New
                         York, NY; Los Angeles, CA; Denver, CO; and Raleigh, NC.

Diversity                Of the 403 individuals on board as of September 30, 1999,
                         43 percent are women and 42 percent are minorities.
                         Minorities include Blacks (28 percent), Hispanics
                         (7 percent), Asians (6 percent), and Native Americans
                         (1 percent). Based on the U.S. Bureau of the Census
                         estimated data, as of November 1998, Office of Inspector
                         General has met or exceeded the U.S. percentage of total
                         population for each of these groups except for Hispanics,
                         which is 11 percent. Our senior staff is 35 percent female
                         and 26 percent minority.

                         The Office of Inspector General is proud of its diversity and
                         is committed to developing and utilizing the diverse talents
                         of all its employees. Many of our employees have
                         advanced degrees and are certified public accountants,
                         certified internal auditors, certified information systems
                         auditors, certified fraud examiners, and certified acquisition
                         auditors. In addition, a number of our investigators hold law
                         enforcement specialty certifications in areas such as
                         polygraphic examinations and seized computer evidence
                         recovery. Our criminal investigators attend rigorous training
                         at the Federal Law Enforcement Training Center or
                         equivalent law enforcement academy. Employee education
                         and professional certification enhances the Office of
                         Inspector General’s ability to add value to the Postal
                         Service.

                         Our cultural and professional diversity reflects the hiring of
                         the most qualified staff from the widest sources available.
                         We have obtained staff from private industry, other federal



                                            13
                                  Restricted Information
October 1999 Testimony                                                     CL-TR-00-001(R)



                         and state agencies, and the Postal Service, including the
                         Postal Inspection Service. Each employee undergoes a full
                         background investigation to ensure his or her suitability for
                         employment with the Office of Inspector General. Because
                         of our desire to hire competent, talented individuals, we
                         have been highly selective in filling our vacancies.

                         To develop a diverse pool of highly qualified candidates, we
                         have attended numerous conferences, colleges, and career
                         fairs. With the unemployment rate at historic lows, hiring
                         competent, talented individuals continues to be one of our
                         greatest challenges. For example, in order to meet our
                         Governor-approved hiring level of 648 for Fiscal Year 2000,
                         we need to hire over 200 individuals. In addition, as
                         mentioned earlier, we may need to increase our staffing
                         levels and, hence, our level of hiring, because of the
                         Inspection Service’s decision not to perform “Yellow Book”
                         audits in the future.

Organizational           We continued to build our infrastructure. Over the last 18
Infrastructure           months, we established:

                         •	 Our human relations processes and systems, including:
                            a 360 degree feedback evaluation system; an interim
                            pay-for-performance system; an extensive screening
                            process for potential new employees; a thorough pre­
                            employment background investigation process; ten 1­
                            week orientation classes for new employees; a bi-weekly
                            employee newsletter; and a 3-week Postal-specific
                            investigative training program.

                         •	 Our administrative resources services, including:
                            management controls over our internal processes;
                            development of our own contracting function;
                            establishment of Office of Inspector General offices by
                            identifying, leasing, and developing space to
                            accommodate Office of Inspector General staff in
                            various locations throughout the country; performance of
                            numerous quality assurance and internal reviews; and
                            implementation of an automated tracking system for time
                            and projects.

                         •	 Critical audit, investigative and administrative processes,
                            including: developing internal policies and Postal-wide
                            policies for describing Office of Inspector General



                                            14
                                  Restricted Information
October 1999 Testimony                                                    CL-TR-00-001(R)



                            authorities and responsibilities; continuing to notify
                            Postal employees at all levels of their right to report
                            wrongdoing to the Office of Inspector General without
                            fear of retaliation; assuming responsibility from the
                            Inspection Service for review of Postal Service
                            legislation, policies, and procedures; engineering an
                            electronic subpoena system to improve processing of
                            Inspector General administrative subpoenas (for which
                            we received an Executive Council on Integrity and
                            Efficiency Award of Excellence); deploying a report
                            processing review staff to expedite and standardize
                            issuance of reports; working with Postal Service to
                            ensure a valid tracking system for recommendations
                            from the external auditor, General Accounting Office,
                            Inspection Service, and the Office of Inspector General;
                            processing over 100 Freedom of Information Act
                            requests and over 100 Congressional responses; and
                            providing quarterly firearms qualifications and defensive
                            tactics training to criminal investigators.

                         •	 Strategic processes, including: revising the Strategic
                            Plan, developing a universe of over 1,000 projects,
                            preparing the Fiscal Year 2000 Annual Performance
                            Plan, achieving over 80 percent of the performance
                            measurements for Fiscal Year 1999 resulting in a Team
                            Award for Office of Inspector General employees, and
                            establishing computer intrusion and electronic
                            commerce units.

Professional             Within the Inspector General community, the Postal Service
Organization             Office of Inspector General is now a member of two
Memberships              important policymaking bodies of the President’s Council on
                         Integrity and Efficiency. I am a member of the
                         Investigations Committee and my Assistant Inspector
                         General for Audit is a member of the Federal Audit
                         Executive Council. In these positions, the Postal Service
                         has a greater voice within the Inspector General community.
                         In September 1999, the Postal Service Office of Inspector
                         General was honored to receive more awards than any
                         other Office of Inspector General, including four Awards of
                         Excellence and eight Honorable Mention Awards. This
                         accomplishment is especially noteworthy since the Postal
                         Service Office of Inspector General is one of the newest
                         members of the Inspector General community.




                                            15
                                  Restricted Information
October 1999 Testimony                                                      CL-TR-00-001(R)



                         Within the Postal community, the Office of Inspector
                         General continued to gain respect and acceptance in
                         numerous areas. For example, in March 1999, the
                         Governors approved the Office of Inspector General’s role
                         as Co-Contracting Officer’s Representative on the external
                         certification of the Postal Service’s financial statements.
                         This role provides the Office of Inspector General with
                         greater involvement in the external audit process.

                         In August of this year, I was a delegate to the Universal
                         Postal Union in China and saw first hand the role of the
                         Postal Service in the international arena. By attending the
                         Postal management committee meetings with senior Postal
                         officials, I keep informed of emerging issues, developing
                         trends, and new initiatives.

                         Members of my staff and I continued to give numerous
                         presentations to various groups including professional
                         organizations, internal Postal groups, and major Postal
                         stakeholders, informing them about the Office of Inspector
                         General. We have also given over 30 fraud awareness
                         briefings to Postal employees. With our upcoming
                         Semiannual Report to Congress, we will issue a hotline
                         poster, which will be disseminated to all Postal facilities.

Challenges Facing        As a new Office of Inspector General, we still have

The Office of            numerous challenges, which fall into three broad categories: 

Inspector General        our internal infrastructure, our internal Postal Service role, 

                         and our external role to Postal stakeholders. As I look to
                         the future, the key challenges in these categories are:

                         •	 Internal Infrastructure: hiring additional talented and
                            diverse staff; building our processes, policies, and
                            procedures; promoting our values and culture; and
                            continuing to forge ahead with our mission while being
                            sensitive to the variety of extensive demands that are
                            being placed on our employees in our evolving
                            environment.

                         •	 Internal to the Postal Service: continuing to add value
                            through our work by providing meaningful results on a
                            timely basis; educating the Postal Service on our roles
                            and responsibilities; resolving differences, including
                            those of authority, roles, and responsibilities with the
                            Inspection Service; maximizing the impact of Office of



                                            16
                                  Restricted Information
October 1999 Testimony                                                      CL-TR-00-001(R)



                            Inspector General work by instituting effective resolution
                            processes; educating Postal management on the
                            independence of the Office of Inspector General and its
                            duty to report any significant issues to the Postal Service
                            Governors and the Congress; informing Postal Service
                            officials of our authority to make independent decisions
                            on areas to review; performing work and continuing to
                            gain expertise in Postal Service programs, operations,
                            and emerging issues.

                         •	 External to the Postal Service: making the results of our
                            work publicly available without affecting the Postal
                            Service’s competitive position; educating Postal
                            stakeholders on our role; continuing to establish the
                            Postal Service Office of Inspector General as a
                            significant player in the Inspector General and federal
                            law enforcement communities; and effectively dealing
                            with hotline and Congressional inquiries.

                         I would like to expand on one of these issues -- our ability to
                         develop effective working relationships with the Inspection
                         Service. As the Office of Inspector General has grown and
                         initiated work into various Postal areas and operations,
                         Postal employees have not always been familiar with Office
                         of Inspector General authorities. Recently, Postal
                         Inspection Service personnel challenged the Office of
                         Inspector General’s presence at a Postal facility while we
                         were participating in a federal task force surveillance. As a
                         result of this incident, executives of both agencies have
                         renewed team-building efforts to increase communications,
                         trust, and coordination. Situations like these illustrate the
                         need for mutual respect and professional courtesy between
                         the Inspection Service and the Office of Inspector General.

Benefits of an           An independent Office of Inspector General benefits the
Independent Office of    Postal Service by providing not only Postal management but
Inspector General        also the Governors and Congress with timely, objective, and
                         complete information and analyses of Postal Service
                         operations. For example, in our 2½ years of existence, we
                         have issued 14 reports in the areas of new product
                         development, new business processes, new and
                         redesigned automated equipment, and automated systems
                         development. These reports were provided to the
                         Governors, briefed as appropriate to the audit committee
                         and the Governors, and included in our Semiannual Reports



                                            17
                                  Restricted Information
October 1999 Testimony	                                                     CL-TR-00-001(R)



                          to Congress. In contrast, records indicate that for the five­
                          year period before this office was established, 15
                          developmental projects had been opened. While we
                          understand issues were discussed with management, none
                          of the developmental projects were reported in the
                          Semiannual Reports to Congress until September 1998,
                          after our office was established.

                          Other significant benefits to the Postal Service of an
                          independent Office of Inspector General include the:

                          •	 Expansion of audit and investigative coverage of all
                             Postal operations and activities, including rate making,
                             contract administration, Inspection Service oversight,
                             labor management, computer intrusion, electronic
                             commerce, and marketing. This coverage will achieve
                             cost savings, enhance contract and program
                             administration, and increase employee and program
                             integrity.

                          •	 Technological evaluations in areas such as Y2K,
                             electronic commerce, and computer intrusion with
                             experienced, specially trained staff.

                          •	 Independent review of complaints against the Inspection
                             Service, which receive specific audit and investigative
                             oversight.

                          •	 Audit resolution and follow-up processes, which will
                             provide meaningful mechanisms for resolving findings
                             and recommendations where Office of Inspector General
                             and Postal management are in disagreement, and for
                             assuring that management implements corrective action.

                          In summary, we believe that the establishment of an
                          independent Postal Inspector General by Congress in late
                          1996 has resulted in:

                          •	 Greater Postal Service economy, efficiency, and
                             integrity.

                          •	 A truly independent voice.




                                             18
                                   Restricted Information
October 1999 Testimony	                                                     CL-TR-00-001(R)




                          •	 A venue for all employees and other stakeholders to
                             confidentially report allegations of fraud, waste, abuse,
                             and mismanagement.

                          •	 Delivery of objective information and analysis of Postal
                             Service operations to all Postal stakeholders, including
                             Congress and the Governors.

Closing 	                 The Postal Service is reevaluating the role it will play in an
                          advanced technology and highly competitive environment.
                          We will continue to assist the Postal Service, the Governors,
                          and Congress by providing accurate and objective
                          information upon which to base important decisions in the
                          critical areas of performance, technology, financial
                          management, labor management and Inspection Service
                          oversight. As you can see, in the past 18 months we have
                          achieved much and look forward to continuing to work with
                          this Subcommittee and the Postal Service to improve Postal
                          operations.

                          Mr. Chairman, this concludes my statement. I would be
                          pleased to answer any questions you or the Subcommittee
                          may have.




                                             19
                                   Restricted Information
